                            CLOSEOUT FOR M-95090039




prior to his enrollment in graduate school. He also alleged that his work assignments as a
graduate student were menial and did not utilize his professional skills. He resigned after one
term as a graduate student at the institution. The complainant sent copies of his letter
containing his concerns to other federal agencies, organizations, and individuals.

       NSF investigates allegations of misconduct in science involving activities funded by
NSF (45 C.F.R. part 689.1). OIG determined that the concerns described in this case by the
complainant were not allegations of misconduct in science. In addition, OIG's review
determined that, during the complainant's one term as a graduate student, he received no NSF
funds and thus NSF has no apparent jurisdiction in this matter.

       This inquiry is closed and no further action will be taken

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                     Page 1 of 1
